No. 19-603

 

 

In THE
Supreme Court of the Gnited States

Mark SILGUERO AND AMY WOLFE,
Petitioners,
Vv.
CSL PLASMA, INCORPORATED,
Respondent.

On Petition for a Writ of Certiorari to the United States Court of
Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE

I, Sasha Samberg-Champion, counsel for Petitioners, hereby certify that on
this 4th day of February, 2020, I caused three copies of the Reply Brief for
Petitioners to be served by first-class mail on the following counsel:

Bruce J. Douglas
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
225 South 6th Street, Suite 1800
Minneapolis, MN 55402-4638
Counsel for Respondent

I further certify that all parties required to be served have been served.

Dated: February 4, 2020.

SASHA SAMBERG-CHAMPION

Counsel of Record
Relman, Dane & Colfax PLLC
1225 19th St. NW, Suite 600
Washington, D.C. 20036
(202) 728-1888
ssamberg-champion@relmanlaw.com
